..,~~,..vici"o,.




( t-
'+,~ ~\-
  J¥l'iI'()
                   DEPARTMENT OF HEALTH &. HUMAN S,ERVICES                                                                      Office of Inspector General


                                                                                                                                Washington, D.C. 20201

                                                                            SEP - 4 2009




                   TO: Charlene Frizzera
                                          Acting, Administrator
                                          Centers for Medicare             & Medicaid Services

                                                                  /S/
                   FROM: Stuar Wright
                                          Deputy Ins~ectorGeneral for
                                            Evaluation and Inspections


                   SUBJECT: Memorandum Re~ort: "Medicare Hospice Care: Services Provided to
                                          Beneficiaries Residing in Nursing Facilities," OEI-02-06-00223


                   This memorandum report detennines the                           proportion of Medicarehos~ice beneficiaries
                   residing in nursing facilties in 2006 and describes the natue and extent of hospice
                   services ~rovided to them. The Medicarehos~ice benefit                         allows a beneficiary with a
                   terminal ilness to forgo curative treåtmentforthe ilness and instead                      receive palliative
                   care, which is the relief of pain and other uncomfortble syi~toms. The number of
                   Medicare beneficiaries receiving hos~ice care has increased significantly in recent years.
                   In fiscal year 2001, about 580,000 beneficiaries received hos~ice care. In 2006, this
                   number increased by 62 percent to 939,000 beneficiaries. Medicare s~ending on hospice
                   care rose from $3.6 bilion in 2001 to $9.2 bilion in 2006. i

                   Some studies suggest that the                 use of hospìcecareisgrowingmost ra~idly in        nursing
                   facilties.2 In       addition, ~revious OIG work              has :raised questionsaboutthehos~ice   benefit
                   for  nursing facilty          residents. ForeXtan~le, OlGreportedthat in 1995,~a~mentlevels for
                   hospice care in nursing facilities may                   have been eXtcessive.3 However, little subsequent
                   research has been done to examine hospice care for these                    beneficiaries and almost no

                   1 Centers for Medicare & Medicaid Services (CMS), "Medicare Hospice Expenditues and Units of
                                                                                                                                           Care."
                   A vailable online at
                   htt://www .cms.hhs,gov/ProspMedicareFeeSvcPmtGen/downloads/FYQ_5..update, hospice e~gim.es an
                   d units of care.pdf. Accessed on March 27, 2009; CMSanalysis of                            Medicare Health Care Information
                   System data     for calendar year 2006 claims. Provided by CMS on May 5, 2009.
                   2 Offce of
                              the Assistant Secretary for Planiiing and Evaluation (ASPE),"'Use of Medicare's Hospice
                   Benefit by Nursuig Facility Residents," March 2000; Medicare Payment Advisory Commission, "Report to
                   the Congress: Medicare Beneficiaries' Accessto Hospice," May 2002, p. 5.
                   3 OIG, "Hospice Patients in Nursing
                                                                  Homes," OEI-05-95-00250, September 1997.

                   OEl -02-06-00223                  Medicare Hospice Care: Services Provided to Beneficiaries
                                                     Residing in Nursing Facilties
Page 2 – Charlene Frizzera


beneficiary-specific data exist. 4 In fact, a recent report from the Medicare Payment
Advisory Commission noted that Medicare “has virtually no information on the hospice
care it purchases, in terms of either the specific services provided or the quality of care
obtained.” 5 It also stated that substantially more data will be needed to modernize
Medicare’s payment system for hospice.

A 2009 OIG report determined the extent to which hospice claims for beneficiaries in
nursing facilities met Medicare coverage requirements. 6 The report found that 82 percent
of hospice claims for beneficiaries in nursing facilities did not meet at least one Medicare
coverage requirement. Medicare paid approximately $1.8 billion for these claims. The
report also found that for 31 percent of claims, hospices provided fewer services than
outlined in beneficiaries’ plans of care.

In this evaluation, we found that 31 percent of Medicare hospice beneficiaries resided in
nursing facilities in 2006. Medicare paid $2.59 billion for their hospice care, at an
average of $960 per week for each hospice beneficiary residing in a nursing facility.
Hospices most commonly provided nursing, home health aide, and medical social
services. They furnished an average of 4.2 visits per week for these three services
combined. They also commonly provided drugs. The results in this memorandum report
can help CMS and other decisionmakers determine whether the types and frequencies of
hospice services provided to beneficiaries in nursing facilities meet the goals of the
hospice benefit and whether current payment rates are aligned with the hospice services
being provided.

BACKGROUND

The Medicare Hospice Benefit
The Tax Equity and Fiscal Responsibility Act of 1982 created the Medicare hospice
benefit for eligible beneficiaries under Medicare Part A. 7 The goals of hospice care are
to help terminally ill beneficiaries continue life with minimal disruption and to support
beneficiaries’ families and other caregivers throughout the process. The care may be
provided to individuals and their families in the home or other places of residence, such
as a skilled or other nursing facility. The care provided to families and other caregivers
includes counseling and training to provide care for the individual and bereavement
counseling.

4
  Government Accountability Office (GAO), “Medicare Hospice Care: Modifications to Payment
Methodology May Be Warranted,” GAO-05-42, October 15, 2004, pp. 4 and 20; ASPE, “Synthesis and
Analysis of Medicare’s Hospice Benefit,” March 2000.
5
  Medicare Payment Advisory Commission, “Report to the Congress: Reforming the Delivery System,”
June 2008, Chapter 8, p. 224.
6
  OIG, “Medicare Hospice Care for Beneficiaries in Nursing Facilities: Compliance With Medicare
Coverage Requirements,” OEI-02-06-00221.
7
  The Tax Equity and Fiscal Responsibility Act of 1982, § 122, P.L. No. 97-248 § 122, 96 Stat. 324, 356,
42 U.S.C. § 1395x(dd).

OEI-02-06-00223           Medicare Hospice Care: Services Provided to Beneficiaries
                          Residing in Nursing Facilities
Page 3 – Charlene Frizzera


To be eligible for Medicare hospice care, a beneficiary must be entitled to Part A of
Medicare and be certified as having a terminal prognosis with a life expectancy of
6 months or less if the disease runs its normal course. Upon a beneficiary’s election of
hospice care, the hospice agency assumes the responsibility for medical care related to
the beneficiary’s terminal illness and related conditions. This care is palliative, rather
than curative. The beneficiary waives all rights to Medicare payment for services related
to the treatment of the terminal condition or a related condition but retains rights to
Medicare payment for services to treat conditions unrelated to the terminal illness. 8

Hospice services. A plan of care must be established as set forth in regulations before
services are provided, and the services must be consistent with the plan of care. 9
Pursuant to Federal statutes and regulations, Medicare covers the following hospice
services:

    •   nursing care provided by, or under the supervision of, a registered nurse;
    •   physical or occupational therapy or speech-language pathology services;
    •   medical social services under the direction of a physician;
    •   home health aide and homemaker services;
    •   medical supplies (including drugs and biologicals) and the use of medical
        appliances;
    •   physician services;
    •   short-term inpatient care (including both respite care and procedures necessary for
        pain control and acute and chronic symptom management);
    •   counseling (including dietary counseling) with respect to care of the terminally ill
        individual and adjustment to the individual’s death; and
    •   any other service that is specified in the plan of care as reasonable and necessary
        for the palliation and management of the terminal illness and related conditions
        and for which payment may otherwise be made under Medicare. 10

Levels of care and payment. The Medicare hospice benefit has four levels of care, and
each level has an all-inclusive, prospectively determined daily rate. The rate is paid to
the hospice for each day that a beneficiary is in hospice care, regardless of the number of
services furnished. The four levels of care are: routine home care, continuous home
care, respite care, and general inpatient care. Routine home care is the most common
level of care and includes, but is not limited to, nursing and home health aide services.
Appendix A provides detailed information on the four levels of care and the payment
rates.

In addition, Medicare pays for physician services for hospice beneficiaries. This
reimbursement may be through Part A or Part B, depending on the physician’s
8
  42 CFR § 418.24.
9
  42 CFR § 418.200.
10
   42 CFR § 418.202.

OEI-02-06-00223        Medicare Hospice Care: Services Provided to Beneficiaries
                       Residing in Nursing Facilities
Page 4 – Charlene Frizzera


relationship with the hospice. Medicare pays the hospice for physician services under
Part A when the beneficiary’s attending physician is an employee of or is under contract
with the hospice provider. 11 The hospice compensates the physician through salary or
some other arrangement. Medicare pays the physician for physician services under Part
B when the beneficiary’s attending physician does not have a payment arrangement with
the hospice.

Hospice care in nursing facilities. When a beneficiary resides in a nursing facility, the
hospice is responsible for providing the hospice services to the beneficiary. The nursing
facility provides room and board and care unrelated to the terminal illness. Medicare
reimburses the hospice according to the level of care provided, and the beneficiary or a
third-party payer pays the nursing facility for room and board costs. 12

Related Work
An earlier OIG report found that 28 percent of Medicare hospice beneficiaries resided in
nursing facilities while they received hospice care in 2005. 13 These beneficiaries were
more than twice as likely as beneficiaries in other settings to have terminal diagnoses of
ill-defined conditions, mental disorders, or Alzheimer’s disease. Another report found a
number of cases in which the use of respite care for nursing facility beneficiaries may
have been inappropriate; these cases were referred to CMS for appropriate action. 14

METHODOLOGY

To conduct this study, we used complete claims data for all Medicare beneficiaries who
received hospice care in 2006. We also used data from a medical record review of a
stratified random sample of hospice claims for beneficiaries in nursing facilities. We
selected a stratified random sample of 470 hospice claims from this file, and our final
sample included 450 hospice claims. See Appendix B for detailed information about our
sample selection.

Medical Record Review
We used a contractor to collect and review the medical records associated with each
sampled claim. The contracted reviewers recorded all hospice services provided to the
beneficiary during the claim period, with the exception of physician services. 15 The
reviewers also recorded whether drugs were provided to the beneficiary but did not
identify the drugs or record dosages provided. The reviewers did not record services
provided to family members.
11
   The beneficiary’s attending physician may be a nurse practitioner.
12
   “Medicare Benefit Policy Manual,” chapter 9, section 20.3. Available online at
http://www.cms.hhs.gov/manuals/Downloads/bp 102c09.pdf. Accessed on February 10, 2009.
13
   OIG, “Medicare Hospice Care: A Comparison of Beneficiaries in Nursing Facilities and Beneficiaries in
Other Settings,” OEI-02-06-00220, December 2007.
14
   OIG, “Hospice Beneficiaries’ Use of Respite Care,” OEI-02-06-00222, March 2008.
15
   Services provided by beneficiaries’ attending physicians are not always included in the hospice records.

OEI-02-06-00223           Medicare Hospice Care: Services Provided to Beneficiaries
                          Residing in Nursing Facilities
Page 5 – Charlene Frizzera


The contractor reviewed a total of 447 claims. For the other three claims, the hospices
did not provide any documentation to review. 16 Because no information on services was
available for these claims, they were excluded from our analysis.

Analysis
Using the complete National Claims History file, we calculated the total number of
Medicare beneficiaries who received hospice care in 2006. 17 Hospice claims typically
cover a 1-month period but could be for shorter periods of time. After matching this file
to the Minimum Data Set file, we calculated the total number of Medicare hospice
beneficiaries who resided in nursing facilities in 2006. We determined the total dollars
and the average weekly amount Medicare paid for their hospice care, not including
physician payments. In addition, we determined the percentage of claims for these
beneficiaries by the levels of care provided.

Based on our medical record review of sampled claims, we calculated the percentage of
claims for which drugs, nursing services, home health aide and homemaker services
(hereinafter referred to as “home health aide services”), medical social services,
counseling, volunteer and other miscellaneous services, physical therapy, occupational
therapy, or speech-language pathology services were furnished. The use of medical
appliances and supplies was not included in our analysis. 18 Because a hospice could have
provided an appliance before the sampled claim period, the use of that appliance may not
have appeared in the collected medical records.

We calculated the average number of visits hospices provided per week for nursing,
home health aide, and medical social services. We described the average length of these
visits among sampled claims that covered routine care only. Durations were not recorded
for a significant percentage of visits, so projecting the average length of visits from our
sample was unfeasible. Finally, we compared the types of services provided by
not-for-profit hospices and for-profit hospices. We were unable to compare types and
frequencies of services by level of care provided, because most of the claims in our
sample were for routine care only. We tested for statistically significant differences and
noted in our findings when these differences occurred.

See Appendix C for selected point estimates and their confidence intervals, and see
Appendix D for the results of our statistical tests.




16
   We contacted the hospices by telephone and certified mail, but they did not provide the requested
records. We have referred these cases to CMS for appropriate action.
17
   We excluded claims that were for physician services only.
18
   Appliances may include durable medical equipment as well as other self-help and personal comfort items
related to the palliation or management of the patient’s terminal illness. See 42 CFR § 418.202(f).

OEI-02-06-00223           Medicare Hospice Care: Services Provided to Beneficiaries
                          Residing in Nursing Facilities
Page 6 – Charlene Frizzera


Limitations
This memorandum report is based on a medical record review of sampled claims. These
claims were also the basis for another OIG report, which found that 82 percent of claims
did not meet at least one Medicare coverage requirement. 19 For this memorandum report,
we presented information on the types and frequencies of services provided by hospices
to beneficiaries in nursing facilities. We did not assess whether individual services were
appropriate.

STANDARDS

This review was conducted in accordance with the “Quality Standards for Inspections”
issued by the President’s Council on Integrity and Efficiency and the Executive Council
on Integrity and Efficiency (now Council of the Inspectors General on Integrity and
Efficiency).




19
  OIG, “Medicare Hospice Care for Beneficiaries in Nursing Facilities: Compliance With Medicare
Coverage Requirements,” OEI-02-06-00221.

OEI-02-06-00223          Medicare Hospice Care: Services Provided to Beneficiaries
                         Residing in Nursing Facilities
Page 7 – Charlene Frizzera


RESULTS

Thirty-One Percent of Medicare Hospice Beneficiaries Resided in Nursing Facilities
in 2006; Medicare Paid $2.59 Billion for Their Hospice Care
Based on claims data for all Medicare beneficiaries receiving hospice care, we found that
31 percent of hospice beneficiaries resided in nursing facilities in 2006, compared to 28
percent in 2005. 20 In 2006, 289,544 beneficiaries received hospice care while residing in
nursing facilities.

Medicare paid hospices approximately $2.59 billion for care provided to beneficiaries
residing in nursing facilities in 2006. On average, Medicare paid $960 per week for each
hospice beneficiary in a nursing facility. This amount did not cover physician services,
which were paid for separately from
the daily rate.                             Table 1: Percentage of Claims by Levels of
                                                 Care for 2006
By far, the most common level of                                                               Percentage of
                                                 Level of Care
hospice care provided to these                                                                       Claims
beneficiaries was routine care.                  Routine care only                                      91%
Ninety-one percent of their hospice
                                                 General inpatient care only                             3%
claims were for routine care only.
Another 3 percent were for general               Routine and general inpatient care only                 3%
inpatient care only. Most of the                 Routine and continuous care only                        2%
remaining claims were for a                      All other levels or combinations
combination of routine care and one or                                                                   1%
                                                 of levels of care
more other levels of care. See Table 1.        Source: OIG analysis of hospice claims, 2008.


Hospices Most Commonly Provided Nursing, Home Health Aide, and Medical
Social Services; They Also Commonly Provided Drugs
Based on the medical record review, hospices provided nursing services to beneficiaries
for 96 percent of claims in 2006. Hospices furnished home health aide services to
beneficiaries for 73 percent of claims and medical social services for 68 percent of
claims. Hospices provided counseling for 58 percent of claims. Volunteer and other
miscellaneous services were provided to a lesser extent. Physical therapy, occupational
therapy, and speech-language pathology services occurred only in rare instances. See
Table 2. In addition to these services, drugs were provided to beneficiaries for 96 percent
of claims.




20
  OIG, “Medicare Hospice Care: A Comparison of Beneficiaries in Nursing Facilities and Beneficiaries in
Other Settings,” OEI-02-06-00220, December 2007, p. 8.

OEI-02-06-00223          Medicare Hospice Care: Services Provided to Beneficiaries
                         Residing in Nursing Facilities
Page 8 – Charlene Frizzera


The medical record review revealed some differences between the types and frequencies
of services provided by for-profit hospices and those provided by not-for-profit hospices.
                                                                         Home health aide services were
   Table 2: Percentage of Claims by Types of                             furnished for a higher percentage
   Services Provided                                                     of claims from for-profit hospices
                                                             Percentage  than from not-for-profit hospices.
  Type of Service
                                                              of Claims* These services were provided for
  Nursing services                                                  96%  79 percent of for-profit hospice
  Home health aide services                                         73%
                                                                         claims, compared to 67 percent of
                                                                         not-for-profit hospice claims. By
  Medical social services                                           68%  contrast, volunteer and other
  Counseling (including spiritual, pastoral,
                                                                    58%
                                                                         miscellaneous services were
  or chaplain services)
                                                                         furnished for a lower percentage of
  Volunteer and other miscellaneous services                        14%  claims from for-profit hospices
  Physical therapy, occupational therapy, or                             than from not-for-profit hospices,
                                                                    <1%
  speech-language pathology services                                     8 percent and 21 percent,
Source: OIG analysis of medical record review results, 2008.             respectively. These differences
*Percentages are not mutually exclusive.                                 were statistically significant at the
                                                                         95-percent confidence level.

Hospices Provided an Average of 4.2 Visits Per Week for the Three Most Common
Services Combined
Hospices provided an average of 4.2 visits per week for nursing services, home health
aide services, and medical social services combined. Although nursing services were
furnished for the greatest percentage of claims, they did not occur the most frequently.
Home health aide services were provided more often, at an average of 2.2 times per
week. For over half of the claims, beneficiaries received about 1 to 3 home health aide
visits per week. Nursing services
                                             Table 3: Average Number of Visits Per Week
averaged 1.7 visits per week, with
beneficiaries receiving about 1 to           for the Most Common Services
2 nursing visits per week for               Type of Service
                                                                          Average Number of
                                                                             Visits Per Week*
two-thirds of the claims. Medical
social services usually occurred on a       Home health aide services                     2.2
monthly or bimonthly basis, averaging       Nursing services                              1.7
about 1.7 visits per month or 0.4 visits
                                            Medical social services                       0.4
per week. See Table 3.
                                                       All three services combined                             4.2
As noted in the methodology,
                                         Source: OIG analysis of hospice claims, 2008.
durations were not recorded for a
                                         *The averages for individual services do not sum to the average for all
significant percentage of visits, so     three services combined because of rounding.
projecting the average length of visits
from our sample was unfeasible. Based on the limited number of visits whose lengths
were recorded and which were for routine care only, we found that home health aide
visits were 65 minutes on average, although their duration ranged from 2 minutes to

OEI-02-06-00223              Medicare Hospice Care: Services Provided to Beneficiaries
                             Residing in Nursing Facilities
Page 9 – Charlene Frizzera


8 hours. Nursing services were shorter, at 53 minutes on average, and ranged from
5 minutes to 4 hours. Medical social service visits were shorter still, at 43 minutes on
average, and ranged from 5 minutes to 2.6 hours.

CONCLUSION

We found that 31 percent of Medicare hospice beneficiaries resided in nursing facilities
in 2006. Medicare paid hospices approximately $2.59 billion for care provided to
beneficiaries in nursing facilities in 2006. On average, Medicare paid $960 per week for
hospice care for each hospice beneficiary in a nursing facility, not including payment for
physician services. This care most commonly included nursing, home health aide, and
medical social services. Hospices furnished an average of 4.2 visits per week for these
three services combined. They also commonly provided drugs.

The results of this memorandum report can help CMS and other decisionmakers
determine whether the types and frequencies of hospice services provided to beneficiaries
in nursing facilities meet the goals of the hospice benefit. The results can also help
decisionmakers determine whether current payment rates are aligned with the hospice
services being provided.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-02-06-00223 in all correspondence.




OEI-02-06-00223        Medicare Hospice Care: Services Provided to Beneficiaries
                       Residing in Nursing Facilities
Page 10 – Charlene Frizzera


APPENDIX A

HOSPICE PAYMENT RATES

The Centers for Medicare & Medicaid Services (CMS) publishes general hospice
payment rates annually to be used for each level of care. 21 The rates are adjusted based
on the beneficiary’s geographic location. The levels of care and the fiscal year 2006
Medicare unadjusted daily rates for each are as follows:

     •   Routine Home Care ($126.49): The routine home care rate is paid to the hospice
         for each day that the beneficiary is under the care of the hospice and is not
         receiving one of the other categories of care. Routine home care includes, but is
         not limited to, nursing and home health aide services. Routine home care may be
         provided in the home or other places of residence, such as a nursing facility.

     •   Continuous Home Care ($738.26): Continuous home care is allowed only during
         periods of crisis in which a beneficiary requires continuous care to achieve
         palliation or management of acute medical symptoms. It is covered only as
         necessary to maintain the terminally ill beneficiary at home. The care must be
         predominantly nursing care. Continuous home care may be provided in the home
         or other places of residence, such as a nursing facility. The continuous home care
         rate is divided by 24 hours to determine an hourly rate. A minimum of 8 hours
         must be provided.

     •   Respite Care ($130.85): Respite care is short-term inpatient care provided to the
         beneficiary when necessary to relieve the beneficiary’s caregiver(s). Respite care
         may be provided only on an occasional basis and is not reimbursed for more than
         5 consecutive days. Respite care may be provided in a Medicare- or
         Medicaid-certified hospice inpatient facility, hospital, skilled nursing facility, or
         nursing facility.

     •   General Inpatient Care ($562.69): General inpatient care is for pain control and
         symptom management that cannot feasibly be provided in other settings. General
         inpatient care may be provided in a Medicare- or Medicaid-certified hospice
         inpatient facility, hospital, or skilled nursing facility.




21
  CMS, “Medicare Claims Processing Manual,” Pub. No. 100-04, ch. 11, Transmittal 663, Change Request
3977. Available online at http://www.cms.hhs.gov/transmittals/downloads/R663CP.pdf. Accessed on
January 28, 2009.


OEI-02-06-00223          Medicare Hospice Care: Services Provided to Beneficiaries
                         Residing in Nursing Facilities
Page 11 – Charlene Frizzera


APPENDIX B

METHODOLOGY

We based this study on data from a medical record review of a stratified random sample
of hospice claims for beneficiaries in nursing facilities.

Sample Selection
Using the National Claims History file, we extracted all Medicare hospice claims that had
service dates in 2006 and were received through December 2006. Hospice claims
typically cover a 1-month period but could be for shorter periods. We matched the
claims data to the Medicare Enrollment Database by health insurance claim number to
identify the Social Security number for each beneficiary.

Because hospice claims in 2006 did not include place of service, we used the Minimum
Data Set (MDS) to identify nursing facility stay dates. The MDS includes assessments
on all residents in Medicare- or Medicaid-certified nursing facilities. We used the MDS
assessments received from January 2004 through December 2006 to create a record for
each beneficiary of the dates when he or she resided in a nursing facility.

We matched the hospice claims to these nursing facility stay dates by the beneficiaries’
Social Security numbers to identify claims for beneficiaries while they resided in nursing
facilities. We created a file that included all hospice claims that corresponded to
beneficiaries’ nursing facility stays. This file included 812,668 hospice claims for
231,978 beneficiaries. 22

We selected a stratified random sample of 470 hospice claims from this file. We
stratified the sample to ensure that we included claims for beneficiaries who had
high-dollar-amount claims and had received hospice care while in a nursing facility for
an extended period. This stratum comprised all claims for hospice beneficiaries with an
average hospice reimbursement of $400 or more per day for at least 60 days while in a
nursing facility during 2006. The other two strata comprised claims for all remaining
beneficiaries who received hospice care while in a nursing facility: one stratum included
all claims for beneficiaries with a maximum claim amount of $3,000 or less, and the
other included all claims for beneficiaries with a maximum claim amount of more than
$3,000. We then selected a random sample of claims from each stratum. See Table B-1.




22
     These numbers were based on claims received through December 2006.

OEI-02-06-00223            Medicare Hospice Care: Services Provided to Beneficiaries
                           Residing in Nursing Facilities
Page 12 – Charlene Frizzera



         Table B-1: Sample Selection
                                                                                   Initial     Final
         Description of Strata                                      Population
                                                                                 Sample      Sample

        Claims for beneficiaries with high   Average claim
        average daily claim amounts and      amount > $400/day           1,441         35        33
        extended nursing home stays          for at least 60 days


                                             Maximum claim
                                                                       279,697         85        82
        Claims for all other beneficiaries   amount < $3,000
        with nursing home stays
                                             Maximum claim
                                                                       531,530       350        335
                                             amount > $3,000

           Total claims                                                812,668       470        450



We excluded 12 claims from our sample because the hospices were currently under
investigation by the Office of Inspector General. We excluded an additional claim
because the beneficiary’s nursing facility stay information was incomplete and an
additional three claims because we were unable to locate the hospices. 23 We also
excluded another four claims because the contractor erred in record collection. 24 Our
final sample included 450 claims.

As a last step, we identified the names and addresses of the hospices associated with each
sampled claim by using the Online Survey and Certification Reporting System (OSCAR).
We matched the hospice provider numbers in the claims file with the OSCAR data. We
also identified hospices that were for-profit and those that were not-for-profit using a
variable that indicated the type of provider ownership. In total, 43 percent of claims were
from not-for-profit hospices and 53 percent of claims were from for-profit hospices. The
remaining 4 percent were for services provided by government hospices.

Medical Record Review
We used a contractor to collect and review the medical records associated with each
sampled claim. For each claim, we requested that the hospices provide the relevant
hospice election statement, plan(s) of care, 25 record of services provided (including those
furnished under arrangement or contract with the hospice), certification(s) of terminal
illness, and clinical information and other documentation that supported the medical




23
   The hospices’ telephone numbers were disconnected and the hospices could not be reached by certified
mail. We have referred these cases to CMS for appropriate action.
24
   The contractor collected records for the wrong claim period in three cases and contacted the wrong
provider in one case.
25
   Although only one plan of care is in effect at any given time, some beneficiaries had more than one plan
of care during the claim period.

OEI-02-06-00223              Medicare Hospice Care: Services Provided to Beneficiaries
                             Residing in Nursing Facilities
Page 13 – Charlene Frizzera


prognosis. Hospices are required to keep all of this information in the clinical record that
they establish for every individual receiving care and services. 26 We requested these
records for the claim period and, if possible, for the 30 days preceding and the 30 days
following the claim period.




26
     42 CFR § 418.74.

OEI-02-06-00223         Medicare Hospice Care: Services Provided to Beneficiaries
                        Residing in Nursing Facilities
Page 14 – Charlene Frizzera


APPENDIX C

CONFIDENCE INTERVALS FOR SELECTED ESTIMATES

                                                                                                         95-Percent
  Type of Service                                          n             Point Estimate
                                                                                                 Confidence Interval

  Nursing services                                      447                       96.3%                 93.3% – 97.9%

  Home health aide services                             447                       73.0%                 68.1% – 77.4%

  Medical social services                               447                       68.0%                 63.0% – 72.7%

  Counseling (including spiritual, pastoral,
                                                        447                       57.6%                 52.4% – 62.6%
  or chaplain services)

  Volunteer and other miscellaneous
                                                        447                       14.4%                 11.3% – 18.2%
  services

  Physical therapy, occupational therapy,
                                                        447                         0.6%                   0.2% – 1.8%
  or speech-language pathology services

Source: Office of Inspector General (OIG) analysis of medical record review results, 2008.




                                                                                                         95-Percent
                                                           n             Point Estimate
                                                                                                 Confidence Interval

  Drugs*                                                446                       96.1%                 93.5% – 97.8%

Source: OIG analysis of medical record review results, 2008.
*Reviewers did not indicate for one claim whether drugs were provided.




                                                                  Average Number of                      95-Percent
  Type of Service                                          n
                                                                     Visits Per Week             Confidence Interval


  Home health aide services                             447                          2.16                   2.01 – 2.32

  Nursing services                                      447                          1.68                   1.59 – 1.77

  Medical social services                               447                          0.38                   0.35 – 0.42

  All three services combined*                          447                          4.23                   4.03 – 4.42

Source: OIG analysis of medical record review results, 2008.
*The averages of individual services do not sum to the average for all three services combined because of rounding.




OEI-02-06-00223                   Medicare Hospice Care: Services Provided to Beneficiaries
                                  Residing in Nursing Facilities
Page 15 – Charlene Frizzera


APPENDIX D

WEIGHTED CHI-SQUARE TEST COMPARING NOT-FOR-PROFIT AND
FOR-PROFIT HOSPICES


                                                  Percentage of Claims          Percentage of Claims
                                                    From Not-for-Profit              From For-Profit
  Type of Service                                  Hospices for Which            Hospices for Which                     P-Value
                                                        Services Were                 Services Were
                                                             Provided                      Provided

  Nursing services                                                  97.6%                           96.5%                    0.55

  Home health aide services*                                        67.0%                           78.6%                    0.02

  Medical social services                                           67.5%                           69.6%                    0.69

  Counseling (including spiritual,
                                                                    59.0%                           57.9%                    0.83
  pastoral, or chaplain services)

  Volunteer and other
                                                                    21.2%                            8.3%                 0.0005
  miscellaneous services*

  Physical therapy, occupational
  therapy, or speech-language                                         0.9%                           0.4%                    N/A
  pathology services**

Source: Office of Inspector General (OIG) analysis of medical record review results, 2008.
* Differences between percentages of claims from not-for-profit hospices and those from for-profit hospices were statistically
significant at the 95-percent confidence level.
**Percentages for these services were too small for statistical testing.




                                                  Percentage of Claims          Percentage of Claims
                                                    From Not-for-Profit              From For-Profit
                                                   Hospices for Which            Hospices for Which                     P-Value
                                                        Services Were                 Services Were
                                                             Provided                      Provided

  Drugs                                                             96.3%                           96.6%                    0.88

Source: OIG analysis of medical record review results, 2008.




OEI-02-06-00223                     Medicare Hospice Care: Services Provided to Beneficiaries
                                    Residing in Nursing Facilities
